               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Frederick, MD to Baltimore, MD
    Area Mail Processing Consolidation

                       Audit Report




                                              July 3, 2012

Report Number NO-AR-12-006
                                                                              July 3, 2012

                                             Frederick, MD to Baltimore, MD Area Mail
                                                            Processing Consolidation

                                                          Report Number NO-AR-12-006



BACKGROUND:
The U.S. Postal Service is facing one of       increased by about $558,000 over the
the most difficult challenges in its           period. These conditions occurred
history. Mail volumes peaked at 213            because:
billion pieces in 2006. In 2011, mail
volume had declined to 168 billion                The consolidation took place during
pieces, a 25 percent decline over the              the heaviest volume period of the
past 5 years. The Postal Service                   year.
implemented Area Mail Processing to               Significant turnover occurred in key
consolidate mail processing operations,            management positions during the
eliminate excess capacity, increase                consolidation period.
efficiency, and better use resources.             Management did not adequately plan
Consolidations provide opportunities for           for consolidation transportation
the Postal Service to reduce costs,                needs.
improve service, and operate as a
leaner, more efficient organization.           Management acknowledged there were
                                               challenges and mail delays during initial
This audit responds to a request from          implementation of the consolidation and
Congresswoman Shelley Moore Capito,            service and customer experience scores
2nd District, West Virginia on                 declined. However, management has
consolidation of destinating mail              addressed many of the problems
processing operations from the                 experienced during the consolidation
Frederick, MD Processing and                   and operating conditions have improved
Distribution Facility (P&DF) into the          as of February 2012.
Baltimore Processing and Distribution
Center (P&DC). Our objectives were to          WHAT THE OIG RECOMMENDED:
assess the October 2011 through                We recommended the vice president,
January 2012 consolidation and                 Capital Metro Area, avoid implementing
examine stakeholder concerns.                  consolidations during the fall and
                                               Christmas mailing seasons, as
WHAT THE OIG FOUND:                            appropriate, ensure it meets customer
Consolidation of the Frederick P&DF            service commitments, and complete
destinating mail processing operations         transportation schedule adjustments to
into the Baltimore P&DC initially resulted     avoid late and extra trips.
in significant delayed mail and declines
in service and customer experience             Link to review the entire report
scores. In addition, transportation costs
July 3, 2012

MEMORANDUM FOR:            DAVID C. FIELDS
                           VICE PRESIDENT, CAPITAL METRO AREA


                               E-Signed by Robert Batta
                             VERIFY authenticity with e-Sign




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Frederick, MD to Baltimore, MD Area Mail
                           Processing Consolidation
                           (Report Number NO-AR-12-006)

This report presents the results of our audit of the Frederick, MD Processing and
Distribution Facility Area Mail Processing consolidation into the Baltimore, MD
Processing and Distribution Center (Project Number 12YG017NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

Attachments

cc: David E. Williams, Jr.
    Kevin L. McAdams
    Darrell C. Young
    Corporate Audit and Response Management
Frederick, MD to Baltimore, MD                                                                                           NO-AR-12-006
 Area Mail Processing Consolidation



                                                 TABLE OF CONTENTS
Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Delayed Mail ........................................................................................................................ 2

External First-Class Scores ................................................................................................ 4

Customer Experience Measurement Scores...................................................................... 6

   Causes ............................................................................................................................. 6

   Consolidation Implementation Period ............................................................................. 7

   Employee Reassignments ............................................................................................... 8

   Management Turnover .................................................................................................... 8

   Transportation Needs ...................................................................................................... 9

Other Matters ....................................................................................................................... 9

   Safety ............................................................................................................................... 9

   Linthicum Baltimore Incoming Mail Facility ................................................................... 10

   Area Mail Processing Process (Timeline) ..................................................................... 10

Recommendations ............................................................................................................ 10

Management’s Comments ................................................................................................ 11

Evaluation of Management’s Comments .......................................................................... 11

Appendix A: Additional Information................................................................................... 12

   Background .................................................................................................................... 12

   Objectives, Scope, and Methodology ........................................................................... 13

   Prior Audit Coverage ..................................................................................................... 14

Appendix B: Monetary Impact ........................................................................................... 17
Frederick, MD to Baltimore, MD                                                                   NO-AR-12-006
 Area Mail Processing Consolidation


Appendix C: Management’s Comments ........................................................................... 18




                                            Restricted Information
Frederick, MD to Baltimore, MD                                                                            NO-AR-12-006
 Area Mail Processing Consolidation




Introduction

This report presents the results of our audit of the Frederick, MD Processing and
Distribution Facility (P&DF) Area Mail Processing (AMP) consolidation into the
Baltimore, MD Processing and Distribution Center (P&DC) (Project Number
12YG017NO000). The report responds to a request from Congresswoman Shelley
Moore Capito, 2nd District, West Virginia, and addresses operational risk. Our
objectives were to assess consolidation of the Frederick P&DF destinating 1 mail into the
Baltimore P&DC and examine stakeholder concerns. See Appendix A for additional
information about this audit.

The U.S. Postal Service began consolidating destinating mail processing operations
from the Frederick P&DF into the Baltimore P&DC in October 2011. The consolidation
involved Frederick’s ZIP Code 217 destinating mail and the average daily volume
transferred to Baltimore was 860,841 pieces. Consolidation was completed in January
2012. The Frederick P&DF’s originating mail processing operations were previously
consolidated into the Suburban, MD P&DC in July 2010.

Conclusion

Consolidation of the Frederick P&DF destinating mail into the Baltimore P&DC resulted
in significant increases of delayed mail as well as declines in service and customer
experience scores. 2 These conditions occurred because:

   The consolidation took place during the heaviest volume period of the year. 3

   There was significant turnover in key management positions during the consolidation
    period.

   Management did not adequately plan for post-consolidation transportation needs.

Management acknowledged there were challenges and mail delays during the initial
implementation of the consolidation and that service and customer experience scores
declined. However, local management has addressed many of the problems
experienced during the consolidation and operating conditions have improved as of
February 2012.




1
  Destinating mail is incoming mail arriving for its point of final delivery (destination) through a processing facility.
2
  Customer Experience Measurement (CEM) provides an end-to-end approach to assessing experience with the
Postal Service from the customers’ perspective, including quality of service received.
3
  The consolidation took place between October 2011 and January 2012. This period includes the fall and Christmas
mailing seasons.
                                                                1
Frederick, MD to Baltimore, MD                                                        NO-AR-12-006
 Area Mail Processing Consolidation




Delayed Mail

Delayed mail significantly increased as a result of the consolidation but has shown
improvement since February 2012. For example, delayed mail increased from
2,814,610 pieces (2.4 percent of total mail volume) in October 2010 to 5,221,092 pieces
(4.6 percent of total mail volume) in October 2011, an increase of nearly 200 percent.
Delayed mail occurred despite sufficient floor space and machine capacity at the
Baltimore P&DC (see Table 1). Conditions began to improve in subsequent months,
and in February 2012 delayed mail decreased to 937,024 pieces, or just .9 percent of
total mail volume (see Chart 1).

                              Table 1: Baltimore Machine Capacity
                               Maximum             Combined
                                 Annual             Current            Capacity      Percentage
                                Capacity            Volume            Remaining      of Capacity
        Equipment             (Mailpieces)        (Mailpieces)       (Mailpieces)    Being Used


   Advanced Facer
   Canceller System             601,757,987         232,794,895       368,963,092           39%
   Automated Flat
   Sorter Machine100            251,100,000         148,217,429       102,882,571           59%
   Combined Input
   Output Subsystem             195,300,000         140,785,756         54,514,244          72%
   Delivery Bar Code
   Sorter                     2,555,439,152       1,858,718,305       696,720,847           73%
   Automated Package
   Processing System              35,672,630            32,237,270       3,435,360          90%
   Delivery Bar Code
   Sorter Output
   Subsystem                    499,710,493         410,407,449         89,303,044          82%
   Low Cost Tray
   Sorter                          4,671,401             2,478,139       2,193,262          53%
   Automated
   Parcel and Bundle
   Sorter                         21,130,065             5,623,364      15,506,701          27%
  Source: Web End of Run (WebEOR) data extracted March 28, 2012.




                                                    2
Frederick, MD to Baltimore, MD                                                    NO-AR-12-006
 Area Mail Processing Consolidation



                          Chart 1: Delayed Mail Baltimore P&DC
                        Compared to Same Period Last Year (SPLY)


                              National Delayed Mail Percentage was 5%




  Source: Mail Condition Reporting System (MCRS) data extracted March 21, 2012.


Similarly, the number of trucks at the Baltimore P&DC — referred to as vans on-hand —
significantly increased as a result of the consolidation. These vans on-hand contained
mail and were waiting to be unloaded and processed. The number of vans on-hand rose
from 97 in October 2011 to 667 in December 2011. Management addressed this
problem and, as of March 2012, there were no reported vans on-hand (see Chart 2).

                                  Chart 2: Vans On-Hand
                                     Baltimore P&DC
                        October 2011 Through March 2012 vs. SPLY




 Source: MCRS data extracted April 19, 2012.



                                                     3
Frederick, MD to Baltimore, MD                                                                            NO-AR-12-006
 Area Mail Processing Consolidation




External First-Class Scores

External First-Class (EXFC) 4 measurement system scores were adversely impacted by
the consolidation but have begun to rebound. For example, since October 2011 when
the consolidation occurred, EXFC scores generally declined for all service standards,
reaching their lowest point in December of 2011. However, in January 2012 overnight
scores rose to national levels and 2-day and 3-day scores rebounded in February 2012
(see Charts 3, 4, and 5). This is an indicator that management has addressed many of
the issues that impacted operations during the consolidation to ensure the timely
processing of mail.

                            Chart 3: Baltimore P&DC and National Goal
                                  Overnight EXFC Service Scores
                              October 2010 through February 2012
                                                                                              Consolidation
                                                                                                 Period




    Source: Postal Service, Enterprise Data Warehouse (EDW) data extracted on March 17, 2012.




4
  A system whereby a contractor performs independent service performance tests on certain types of First-Class Mail
“that is, (letters, flats, postcards) deposited in collection boxes and business mail chutes.” It provides national, area,
performance cluster, and city estimates, which are compared with Postal Service goals. The consumer advocate
releases the results to the public quarterly.


                                                            4
Frederick, MD to Baltimore, MD                                                   NO-AR-12-006
 Area Mail Processing Consolidation



                         Chart 4: Baltimore P&DC and National Goal
                                 2-Day EXFC Service Scores
                           October 2010 through February 2012

                                                                     Consolidation
                                                                        Period




 Source: Postal Service, EDW data extracted on March 17, 2012.


                         Chart 5: Baltimore P&DC and National Goal
                                 3-Day EXFC Service Scores
                           October 2010 through February 2012
                                                                 Consolidation
                                                                    Period




 Source: Postal Service, EDW data extracted on March 17, 2012.



                                                      5
Frederick, MD to Baltimore, MD                                                                   NO-AR-12-006
 Area Mail Processing Consolidation



Customer Experience Measurement Scores

Some CEM 5 scores declined during the consolidation and still require management’s
attention. For example, during the consolidation (Quarter 1, fiscal year (FY) 2012), the
CEM residential score for Frederick’s 217 ZIP Code fell 2.1 percent compared to SPLY.
After the consolidation was complete (Quarter 2, FY 2012), the CEM score continued to
decline and fell 17.2 percent compared to SPLY.

Furthermore, scores for Baltimore ZIP Codes 212 and 219 increased 0.4 percent and
9.7 percent, respectively, in Quarter 1, FY 2012. In the Quarter 2, FY 2012 scores for
ZIP Code 212 increased 1.5 percent; however, the score for ZIP Code 219 decreased
by 12.2 percent. Although Baltimore’s 212 ZIP Code increases in both quarters, the
scores were below the national averages (see Table 2).

                                     Table 2: CEM Scores
                          FY 2012 Quarters 1 and 2 Compared to SPLY
    Residential
                            FY 2011                     FY 2012
      Scores
                                                                           Percentage         Percentage
                                                                             Change             Change
    3-Digit ZIP      Quarter       Quarter          Quarter   Quarter       Quarter 1,         Quarter 2,
      Code             1             2                1         2            2011 vs.           2011 vs.
                                                                            Quarter 1,         Quarter 2,
                                                                               2012              2012
    Frederick
                     91.14            91.61           89.26      75.88             -2.1%             -17.2%
    (217)
    Baltimore
                     82.59            80.30           82.95      81.53              0.4%               1.5%
    (212)
    Baltimore
                     91.18           100.00          100.00      87.80              9.7%             -12.2%
    (219)
    National
                     86.55            86.80           88.59      87.63              2.4%              0.96%
    Averages
Source: Postal Service data received May 8, 2012.


Causes

These conditions occurred because:




5
 CEM provides an end-to-end approach to assessing experience with the Postal Service from the customers’
perspective, including quality of service received.


                                                        6
Frederick, MD to Baltimore, MD                                                                     NO-AR-12-006
 Area Mail Processing Consolidation


   The consolidation took place during the heaviest volume period of the year. 6

   Significant turnover occurred in key management positions.

   Management did not adequately plan for consolidation transportation needs,
    resulting in extra transportation cost of $558,000.

Consolidation Implementation Period

The consolidation occurred between October 2011 and January 2012, during the fall
mailing season, 7 followed by the Christmas mailing season, 8 which is historically the
busiest time of the year for the Postal Service. This compounded the difficulty of
implementing the consolidation successfully (see Chart 6).

                   Chart 6: National Monthly First-Handled Piece Volume
                              January 2010 through April 2012




Source: Postal Service, EDW data extracted on May 2, 2012.



Implementing a consolidation during this high-volume period increased delayed mail
and adversely impacted customer service.




6
  The consolidation took place between October 2011 and January 2012. This period includes the fall and Christmas
mailing seasons.
7
  The fall mailing season runs from mid-August through Thanksgiving.
8
  The domestic Christmas holiday mailing season lasts from Thanksgiving through December.


                                                        7
  Frederick, MD to Baltimore, MD                                                                         NO-AR-12-006
   Area Mail Processing Consolidation




  Employee Reassignments

  The consolidation of destinating mail from the Frederick P&DF to the Baltimore P&DC
  resulted in reassigning 210 of 211 9 Frederick P&DF employees. Of these 210
  employees, 109 were reassigned to the Baltimore P&DC, 14 were reassigned to the
  Baltimore Incoming Mail Facility (IMF), and 87 were reassigned to other offices.

  While the Frederick P&DF did not process any mail after October 29, 2011, the majority
  of employees (about 80 percent) were not moved to the Baltimore P&DC until
  November 19, 2011, 20 days after the mail was moved to the plant (see Table 3). This
  was due to provisions in the American Postal Workers Union (APWU) Labor
  Agreement, which limits reassignments to once every 3 months and mandates that all
  impacted employees are reassigned on the same date. 10 In order to meet the
  requirements of the APWU agreement, fully staff the mail processing equipment, and
  keep the impacted employees productive, the Postal Service bused about 40
  employees 11 from the Frederick P&DF to the Baltimore P&DC daily from
  November 1-18, 2011.

                         Table 3: Frederick P&DF Employee Report Dates
 Craft                   Oct. Oct.    Oct.   Nov. Nov.   Nov.    Nov. Nov.                                    Total
                         15    22     29     5    12     19      22    29
 Clerk                                                     70                                                     70
 Mail Handler.            3      4      5      5     3     12      1      1                                       34
 Maintenance                                                5                                                      5
 Totals                   3      4      5      5     3     87      1      1                                      109
 Percentage of
 Employees               2.75      3.67       4.59      4.59      2.75        79.8        .92        .92       100%
Source: Postal Service data received March 9, 2012.


  Management Turnover

  Several key management positions were vacated during the consolidation, including the
  senior plant manager, Transportation manager, and Human Resources manager.
  Understaffing and a lack of continuity in key management positions contributed to the
  issues that impacted operations during the consolidation.


  9
    One maintenance employee remained at the Frederick P&DF to prepare the facility for sale.
  10
     Article 12, Section 4, B.1 of Collective Bargaining Agreement Between American Postal Workers Union, AFL-CIO,
  and U.S. Postal Service November 21, 2010 through May 20, 2015 states that “dislocation and inconvenience to
  full-time and part-time flexible employees shall be kept to the minimum consistent with the needs of the service.
  When the reassignment of employee(s) represented by the APWU is to withhold vacancies outside of the employee’s
  present installation, the date on which the reassignment will occur will be the same for all impacted employees within
  the same Postal Area in which the excessing is occurring. Excessing of APWU employees within the same postal
  area cannot occur more than once in any 3 calendar month period, except by mutual agreement of the parties.”
  11
     The Frederick P&DF employees who were not bused to the Baltimore P&DC remained at the Frederick P&DF to
  work flat bundles and Priority Mail manually until their November 19 report date to the Baltimore P&DC.


                                                            8
Frederick, MD to Baltimore, MD                                                                          NO-AR-12-006
 Area Mail Processing Consolidation




Transportation Needs

Management did not adequately plan for post-consolidation transportation needs before
implementing the consolidation and did not adjust transportation schedules during the
consolidation. Additionally, the Transportation manager’s position was vacated during
the consolidation.

Improper planning and oversight of transportation needs resulted in increased costs and
underutilized trailers. We reviewed trailer utilization rates, 12 extra trips, and late
payments 13 and found that:

    The cost for extra trips and late payments increased by $558,000 during the period
     of review.
    During the consolidation, most of the trailers were only 30 to 50 percent full when
     they left the dock.
The 24-hour clock indicator for “trips on time” showed the Baltimore P&DC had difficulty
meeting this goal since the consolidation. From October 1, 2011, through
March 31, 2012, the Baltimore P&DC met this goal only 42 percent of the time. Meeting
this goal helps ensure timely delivery of mail and maintains customer satisfaction.
Management indicated they are updating the dispatch times and working on a proposal
to create five hubs 14 that will significantly reduce extra trips and late payments.

Other Matters

Safety

During the consolidation, Baltimore P&DC employees filed three complaints with the
Occupational Safety and Health Administration (OSHA) that were unsubstantiated. One
additional complaint was filed shortly after the consolidation was completed. OSHA
officials investigated these complaints but found no compliance issues and closed the
cases without issuing fines (see Table 4).

                            Table 4: OSHA Complaints
                        October 2011 Through February 2012
            Complaint Date             Complaint                                              Status
         10/24/2011                 Congestion in the Plant                                Closed/No Fine
         10/31/2011              Wire Containers Overfilled                                Closed/No Fine
         11/30/2011                 Trash around Elevators                                 Closed/No Fine
         2/6/2012                  Asbestos Concern 15 and                                 Closed/No Fine

12
   For the period October 1, 2011, through February 29, 2012.
13
   For the period October 1, 2011, through March 31, 2012.
14
   Centralized transportation sites to load and unload mail.
15
   A similar complaint filed on June 1, 2011 (before the consolidation) resulted in a fine of $5,000.


                                                            9
Frederick, MD to Baltimore, MD                                                           NO-AR-12-006
 Area Mail Processing Consolidation


                                                               Exits Blocked
     Source: OSHA data received March 23, 2012.


Linthicum Baltimore Incoming Mail Facility

During the consolidation, management diverted Priority Mail to the Linthicum Baltimore
IMF for processing. However, it is standard procedure to process this mail at a facility
other than the Baltimore P&DC during the Christmas mailing season. Some Priority Mail
still continues to be processed at the IMF.

Area Mail Processing Process (Timeline)

The Postal Service complied with stakeholder communication policies and AMP study
events were completed within established timeframes (see Table 5).

                                     Table 5: Timeline of Events
                                                                                      Conducted
                                                                                      Within AMP
                             Event                                         Date       Timeframe
 Area vice president (AVP) notified district or district
                                                                          1/24/2011      Yes
 notified AVP of intent to conduct study.
 Stakeholders notified of the intent to conduct study.                     2/1/2011      Yes
 District manager completed feasibility study and
 submitted to AVP within 2 months of notification to                      3/25/2011      Yes
 conduct study.
 District held public input meeting within 45 days after
                                                                          5/10/2011      Yes
 submitting study to AVP.
 District summarized information from public meeting and
                                                                          5/27/2011      Yes
 written comments within 15 days after meeting.
 Area and headquarters reviewed the feasibility study
 within 60 days from the time the study was submitted to                  7/19/2011      Yes
 the AVP.
 AVP approved the study after finalized worksheets were
 approved by area and headquarters and submitted study                    7/19/2011      Yes
 to senior vice president (SVP), Operations.
 SVP approved study within 2 weeks of receipt from AVP.                   7/22/2011      Yes
   Source: Postal Service data received April 13, 2012.


Recommendations

We recommend the vice president, Capital Metro Area:

1. Avoid implementing consolidations during the fall and Holiday peak mailing seasons
   as appropriate.

2. Ensure customer service commitments are met.




                                                          10
Frederick, MD to Baltimore, MD                                               NO-AR-12-006
 Area Mail Processing Consolidation


3. Complete transportation schedule adjustments to ensure timely processing of mail
   and avoid late and extra trips that resulted in $558,000 in additional cost.


Management’s Comments

Management concurred with the finding and recommendation 1, acknowledging it was
advantageous to avoid implementing consolidations during peak mailing seasons.
However, there may be some low-risk situations where financial considerations dictate
the consolidation moving forward even during peak mailing seasons.

Management concurred with the finding and recommendation 2. While service for
Sectional Center Facility 217 declined during the consolidation, it has shown steady and
sustained improvement during Quarter 3. Operations have now stabilized and service
levels above national targets are being achieved.

Management concurred with the finding, the monetary impact and recommendation 3.
Based on a schedule review, management stated the Postal Service was paying a
contractor for services no longer required since the consolidation. They are working to
ensure reimbursement of payments for services not performed and expect this to be
completed by the end of the calendar year. See Appendix C for management’s
comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues in identified in the report.




                                           11
Frederick, MD to Baltimore, MD                                                                              NO-AR-12-006
 Area Mail Processing Consolidation



                                     Appendix A: Additional Information

Background

The Postal Service is facing one of the most difficult challenges in its history. There has
been a continual decline in mail volume since peaking at 213 billion pieces in 2006. In
2011, mail volume had declined by 45 billion pieces to 168 billion pieces — a 25 percent
decline over the past 5 years — resulting in $25 billion in net losses. Quarter 1, FY 2012
shows a loss of $3.3 billion. 16 This decline can be attributed to the recent recession,
continuing economic pressures, and the use of electronic media (electronic diversion),
as well as additional expenses associated with retirement health benefit prefunding
requirements and increased workers’ compensation expenses. These factors have had
a significant adverse impact on both operating expenses and mail volume in recent
years.

The Postal Service implemented the AMP process to consolidate mail processing
operations. AMP guidelines 17 are used to consolidate mail processing functions,
eliminate excess capacity, increase efficiency, and better use resources. Consolidations
provide opportunities for the Postal Service to reduce costs, improve service, and
operate as a leaner, more efficient organization.

In October 2011, the Postal Service created a portfolio of 36 strategic initiatives to meet
ambitious performance and financial goals. Included in these initiatives is network
optimization through reducing plants, adjusting the workforce, and increasing the use of
processing equipment.

In June 2011 testimony before Congress, the U.S. Government Accountability Office
said the Postal Service urgently needs to restructure its networks and operations as its
financial condition and outlook are becoming a crisis. Financial problems exist because
of declining mail volume brought on by customers’ shift to electronic alternatives and the
Postal Service’s difficulty in reducing costs and eliminating excess network capacity.

Title 39 U.S.C. § 101, Part 1, Chapter 1, states that the Postal Service “. . . shall provide
prompt, reliable, and efficient services to patrons in all areas.” Further, the September
2005 Postal Service Strategic Transformation Plan states, “The Postal Service will
continue to provide timely, reliable delivery to every address at reasonable rates.” The
Postal and Accountability Enhancement Act, P.L. 109-435, Title II, dated December 20,
2006, highlights “. . . the need for the Postal Service to increase its efficiency and
reduce its costs, including infrastructure costs, to help maintain high quality, affordable
postal services. . . ”

This audit report responds to a request from Congresswoman Shelley Moore Capito,
2nd District, West Virginia, to independently review the consolidation of mail processing

16
     This loss includes accruals of over $3.3 billion for retiree health benefits prefunding due in 2012.
17
     Area Mail Processing Guidelines (Handbook PO-408), March 2008.


                                                              12
Frederick, MD to Baltimore, MD                                                                              NO-AR-12-006
 Area Mail Processing Consolidation


operations from the Frederick P&DF into the Baltimore P&DC. The congressional
request identified several concerns, including:

      Delayed mail.

      Significant increase in vans on-hand.

      Mail diverted to the Linthicum Baltimore IMF because the Baltimore P&DC could not
       process it.

      Potential safety violations.

Objectives, Scope, and Methodology

Our objectives were to assess consolidation of the Frederick, MD P&DF destinating mail
into the Baltimore, MD P&DC and examine stakeholder concerns. We reviewed data
from October 1, 2010, through March 31 2012, to analyze mail trends and efficiencies at
the Baltimore P&DC. Additionally, we reviewed service scores, conducted observations
at the Baltimore P&DC and Frederick post offices, and interviewed management.

We used computer-processed data from the following Postal Service systems:

      CEM System.
      EDW.18
      WebEOR.19

We conducted this performance audit from February through July 2012 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on June 7, 2012, and included their
comments where appropriate.

We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.




18
     EDW is an online source for the statistical files of Postal Service financial and operating systems.
19
     WebEOR stores end of run data from mail processing equipment.


                                                              13
    Frederick, MD to Baltimore, MD                                                NO-AR-12-006
     Area Mail Processing Consolidation



    Prior Audit Coverage

                                             Final
                          Report            Report        Monetary
  Report Title            Number             Date          Impact         Report Results
Canton                 NO-AR-09-011       9/22/2009         None        A business case
Processing and                                                          existed to support the
Distribution                                                            consolidation. No
Facility Outgoing                                                       recommendations
Mail                                                                    were made.
Consolidation
New Castle             NO-AR-10-002       2/1/2010        $1,813,643    A business case
Processing and                                                          existed to support the
Distribution                                                            consolidation. No
Facility Outgoing                                                       recommendations
Mail                                                                    were made.
Consolidation
Manasota               EN-AR-10-003       2/12/2010          None       A business case
Processing and                                                          existed to support the
Distribution                                                            consolidation.
Center                                                                  Management agreed
Consolidation                                                           with the
                                                                        recommendation.
Lakeland               EN-AR-10-004       2/12/2010          None       A business case
Processing and                                                          existed to support the
Distribution                                                            consolidation. No
Center                                                                  recommendations
Consolidation                                                           were made.
Dallas                 NO-AR-10-003       2/24/2010       $11,997,208   A business case
Processing and                                                          existed to support the
Distribution                                                            consolidation.
Center Outgoing                                                         Management agreed
Mail                                                                    with the monetary
Consolidation                                                           impact and the
                                                                        recommendations.




                                                     14
    Frederick, MD to Baltimore, MD                                              NO-AR-12-006
     Area Mail Processing Consolidation



                                             Final
                          Report            Report      Monetary
   Report Title           Number             Date        Impact         Report Results
Consolidation of       NO-AR-10-007        7/2/2010       None       A business case
Lima Processing                                                      existed to support the
and Distribution                                                     consolidation.
Facility Mail                                                        Management agreed
Operations into                                                      with the
the Toledo                                                           recommendations.
Processing and
Distribution
Center
Charlottesville        NO-AR-10-008        8/3/2010       None       A business case
Processing and                                                       existed to support the
Distribution                                                         consolidation. No
Facility                                                             recommendations
Consolidation                                                        were made.
Review of              NO-AR-11-001       10/4/2010       None       A business case
Wilkes-Barre, PA                                                     existed to support the
Processing and                                                       consolidation. No
Distribution                                                         recommendations
Facility                                                             were made.
Consolidation
Marysville, CA         NO-AR-11-002       11/23/2010      None       A business case
Processing and                                                       existed to support the
Distribution                                                         consolidation. No
Facility                                                             recommendations
Consolidation                                                        were made.
Houston, TX            NO-AR-11-004       12/14/2010   $18,974,468   A business case
Processing and                                                       existed to support the
Distribution                                                         consolidation.
Center Mail                                                          Management agreed
Consolidation                                                        with the monetary
                                                                     impact and the
                                                                     recommendations.
Columbus, GA           NO-AR-11-005       2/14/2011       None       A business case
Customer                                                             existed to support the
Service Mail                                                         consolidation. No
Processing                                                           recommendations
Center                                                               were made.
Originating Mail
Consolidation




                                                 15
    Frederick, MD to Baltimore, MD                                             NO-AR-12-006
     Area Mail Processing Consolidation



                                            Final
                          Report           Report      Monetary
   Report Title           Number             Date       Impact          Report Results
Implementation         EN-AR-11-004       3/31/2011    $105,125      A business case
of Lima, OH to                                                       existed to support the
Toledo, OH Area                                                      consolidation.
Mail Processing                                                      Management agreed
Consolidation                                                        with the monetary
                                                                     impact and the
                                                                     recommendations.
Oshkosh, WI            NO-AR-11-006       7/29/2011    $3,477,469   A business case
Processing and                                                      existed to support the
Distribution                                                        consolidation with the
Facility                                                            exception of sufficient
Consolidation                                                       floor space and
                                                                    machine capacity.
                                                                    Management agreed
                                                                    with the
                                                                    recommendations but
                                                                    disagreed with our
                                                                    analysis of floor
                                                                    space and letter
                                                                    processing capacity.
Industry CA           NO-AR-12-002        10/17/2011   $1,321,651    A business case
Processing and                                                       existed to support the
Distribution                                                         consolidation. No
Center Mail                                                          recommendations
Consolidation                                                        were made.
Oxnard, CA            NO-AR-12-004         3/6/2012      None        A business case
Processing and                                                       existed to support the
Distribution                                                         consolidation.
Facility                                                             Management agreed
Destinating Mail                                                     with our
Consolidation                                                        recommendations.




                                                 16
Frederick, MD to Baltimore, MD                                                               NO-AR-12-006
 Area Mail Processing Consolidation


                                      Appendix B: Monetary Impact


                   Finding                     Impact Category                        Amount
                Transportation              Funds Put to Better Use 20                 $558,021




20
     Funds that could be used more efficiently by implementing recommended actions.


                                                         17
Frederick, MD to Baltimore, MD                                 NO-AR-12-006
 Area Mail Processing Consolidation


                           Appendix C: Management’s Comments




                                          18
Frederick, MD to Baltimore, MD             NO-AR-12-006
 Area Mail Processing Consolidation




                                      19
